CREDIT CARD ACCOUNT OPENING DISCLOSURE
This Addendum is incorporated into and becomes part of your LOANLINER Consumer Credit Card Agreement.
Please keep this attached to your LOANLINER Credit Card Agreement

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
for Purchases

5.74% - 22.24%

This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

5.74% - 22.24%
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

5.74% - 22.24%
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We
do not charge you interest on purchases if you pay your entire balance by
the due date each month. We will begin charging interest on cash
advances and balance transfers on the transaction date.

For Credit Card Tips from the
Federal Reserve Board

To learn more about factors to consider when applying for or using a
credit card, visit the Web site of the Federal Reserve Board at
http://www.federalreserve.gov/creditcard.

Fees
Set-up and Maintenance Fees
- Annual Fee
- Additional Card Fee
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment

$24.00 - $34.00

$10.00

annually
(one-time fee) per card

1.00%
0.80%

of each multiple currency transaction in U.S. dollars
of each single currency transaction in U.S. dollars

Up to $10.00
Up to $10.00
Up to $20.00

if applicable

How We Will Calculate Your Balance. We use a method called "average daily balance (including new purchases)."
See your account Agreement for more details.
Billing Rights. Information on your rights to dispute transactions and how to exercise those rights is provided in
your account Agreement.
OTHER DISCLOSURES
Late Payment Fee

$10.00

Over-the-Credit Limit Fee

$10.00

Returned Payment

$20.00

Statement Copy Fee
Document Copy Fee
RUSH Fee
Emergency Card Replacement Fee
Card Replacement Fee

$5.00
$5.00
$30.00
$10.00
$10.00

CUNA MUTUAL GROUP, 2009, ALL RIGHTS RESERVED

or the amount of the required minimum payment,
whichever is less
or the amount of the transaction exceeding your credit
limit, whichever is less
or the amount of the required minimum payment,
whichever is less

DCAGW1 (MXC450 CCM000)-e

SEE BACK OF PAGE for more important information about your account.

Collection Costs. You agree to pay all costs of collecting the amount you owe under this Agreement, including
court costs and reasonable attorney's fees.
Periodic Rates.
The Purchase APR is 5.74% - 22.24% which is a daily periodic rate of 0.01573% - 0.06093% .
The Cash Advance APR is 5.74% - 22.24% which is a daily periodic rate of 0.01573% - 0.06093% .
The Balance Transfer APR is 5.74% - 22.24% which is a daily periodic rate of 0.01573% - 0.06093% .
Variable Rate.
The ANNUAL PERCENTAGE RATE is subject to change on the last business day of each quarter to reflect any
change in the Index and will be determined by the Prime Rate on the last business day of each quarter of each
year as published in The Wall Street Journal "Money Rates" table to which we add a margin. Any increase in
the ANNUAL PERCENTAGE RATE will take the form of additional payments shown as Total Minimum Payments
on the statement. If the Index is no longer available, the Credit Union will choose a new index which is based
upon comparable information.

Margin.
Purchases will be charged at 2.49% - 18.99% above the Index.
Cash advances will be charged at 2.49% - 18.99% above the Index.
Balance transfers will be charged at 2.49% - 18.99% above the Index.

DCAGW1 (MXC450 CCM000)-e

DECLARACIÓN DE APERTURA DE UNA CUENTA DE TARJETA DE CRÉDITO
Este anexo se incorpora a su Contrato de tarjeta de crédito para consumidores LOANLINER y forma parte
integrante del mismo. Guarde este anexo junto con su Contrato de tarjeta de Crédito LOANLINER.

TASA DE INTERÉS Y CARGOS POR INTERESES
Tasa de porcentaje anual (APR)
para compras
APR para los anticipos en efectivo

5.74% - 22.24%
La APR variará con el mercado según la Tarifa Preferencial.
5.74% - 22.24%
La APR variará con el mercado según la Tarifa Preferencial.

APR para las transferencias
de saldo

5.74% - 22.24%
La APR variará con el mercado según la Tarifa Preferencial.

Pago de intereses

Su fecha de vencimiento es por lo menos 25 días después del cierre de
cada ciclo de facturación. No le cobramos interés por compras si paga
la totalidad del saldo antes de la fecha de vencimiento cada mes.
Comenzaremos a cobrar intereses por anticipos en efectivo y
transferencias de saldo en la fecha de la transacción.
Para obtener más información sobre los factores que deben tenerse en
cuenta cuando se solicita o usa una tarjeta de crédito, visite el sitio
web de la Junta de la Reserva Federal en
http://www.federalreserve.gov/creditcard.

Consejos de la Junta de la
Reserva Federal sobre tarjetas
de crédito

CARGOS
Cargos de apertura y mantenimiento
- Cargo anual
- Cargo por tarjeta adicional

$24.00 - $34.00

Cargos por transacciones
- Cargo por transacciones en
moneda extranjera

1.00%

para cada transacción que utilice varias monedas en
dólares estadounidenses

0.80%

para cada transacción que utilice una sola moneda en
dólares estadounidenses

Cargos de las multas
- Recargo por mora
- Cargos por exceder el límite
de crédito
- Pago devuelto

$10.00

Anualmente
(cargo único) por tarjeta

hasta $10.00
hasta $10.00

(si corresponde)

hasta $20.00

Cómo calcularemos su saldo. Utilizamos un método llamado "saldo diario promedio (incluye las compras
nuevas)". Para obtener más detalles, consulte su Contrato de cuenta.
Derechos de facturación. La información sobre sus derechos de cuestionar transacciones y sobre cómo ejercer
esos derechos se encuentra disponible en su Contrato de cuenta.
OTRAS DECLARACIONES
Recargo por mora
$10.00
Cargos por exceder el límite de crédito $10.00
Pago devuelto
Cargo por copias del estado de cuenta
Cargo por copias de documentos
Cargo por trámite URGENTE
Cargo por reemplazo de tarjeta
de emergencia
Cargo por reemplazo de tarjeta
CUNA MUTUAL GROUP, 2009, ALL RIGHTS RESERVED

$20.00
$5.00
$5.00
$30.00
$10.00

o el monto del pago mínimo exigido, lo que sea menor.
o el monto de la transacción que excede su límite de
crédito, lo que sea menor.
o el monto del pago mínimo exigido, lo que sea menor.

$10.00
DCAGW1 (MXC450 CCM000)-e

CONSULTE EL DORSO DE ESTA PÁGINA para obtener más información importante sobre su cuenta.

Gastos de cobranza. Usted acuerda pagar todos los gastos en los que se incurra, tales como gastos judiciales y
honorarios razonables de abogados, para cobrar el monto que usted adeude conforme a este Contrato.
Tasas periódicas.
La tasa de porcentaje anual (APR) para compras es de 5.74% - 22.24% ,la cual es una tasa periódica diaria de
0.01573% - 0.06093% .
La tasa de porcentaje anual (APR) para anticipos en efectivo es de
diaria de 0.01573% - 0.06093% .

5.74% - 22.24%

, la cual es una tasa periódica

, la cual es una tasa periódica
a tasa de porcentaje anual (APR) para transferencias de saldo es de 5.74% - 22.24%
diaria de 0.01573% - 0.06093% .
La TASA DE PORCENTAJE ANUAL está sujeta a cambios el último día hábil de cada trimestre para reflejar
cualquier cambio en el índice y estará determinada por la tasa preferencial en el último día hábil de cada
trimestre de cada año según lo publicado en la tabla de la sección "Money Rates" (Tasas del mercado de
dinero) en The Wall Street Journal, a la cual agregamos un margen. Todo incremento en la TASA DE
PORCENTAJE ANUAL se traducirá en pagos adicionales que figurarán como Pagos mínimos totales en el estado
de cuenta. Si el Índice deja de estar disponible, la Cooperativa de Ahorro y Crédito elegirá un nuevo índice que
se base en información semejante.
Margin.
Por compras se cobrará el 2.49% - 18.99% por encima del índice.
Por anticipos en efectivo se cobrará el2.49% - 18.99% por encima del índice.
Por transferencias de saldo se cobrará el 2.49% - 18.99% por encima del índice.

DCAGW1 (MXC450 CCM000)-e

